CAPITAL CASE
No. 20-1197

In the Supreme Court of the United States
__________
EUGENE MILTON CLEMONS II, PETITIONER-APPELLANT,
v.
JEFFERSON S. DUNN, COMMISSIONER, ALABAMA DEPARTMENT OF CORRECTIONS, ET
AL., RESPONDENTS.
__________
CERTIFICATE OF SERVICE
I, Linda T. Coberly, counsel of record for Petitioner Eugene Milton Clemons II, and a
member of the Bar of this Court, hereby certify that on May 14, 2021, as required by
Supreme Court Rule 29, I have served the Reply Brief in Support of Certiorari and
Certificate of Compliance on the following counsel of record for Respondents by
commercial carrier and email:
Henry Mitchell Johnson
State of Alabama, Office of the Attorney General
501 Washington Avenue
Montgomery, Alabama 36130
(334) 353-9095
hjohnson@ago.state.al.us
Edmund Gerald Lacour Jr.
State of Alabama, Office of the Attorney General
501 Washington Avenue
Montgomery, Alabama 36130
(334) 353-2196
elacour@ago.state.al.us
I further certify that all parties required to be served have been served.
/s/ Linda T. Coberly
Linda T. Coberly
WINSTON & STRAWN LLP
35 W. Wacker Drive
Chicago, IL 60601
(312) 558-5600
LCoberly@winston.com

